U.S. Department of the Interior
Office of Inspector General




           AUDIT REPORT


         DEFERRED MAINTENANCE,
         NATIONAL PARK SERVICE

             REPORT NO. 99-I-959
              SEPTEMBER 1999
                                                                         E-IN-NPS-003-98


            United States Department of the Interior
                            OFFICE OF INSPECTOR GENERAL
                                      Washington, D.C. 20240




                                   AUDIT REPORT

Memorandum

To:      Assistant Secretary for Fish and Wildlife and Parks
                                      I
From:    Robert          J. Williams ‘/“‘. ~‘_ ti: t‘ t. . : i : _
         Assistant Inspector General for Audits

Subject: Audit Report on Deferred Maintenance, National Park Service (No.         99-1-959)


                                   INTRODUCTION
This audit report presents the results of our review of the fiscal year 1998 deferred
maintenance cost estimates prepared by the National Park Service. The initial objective of
the audit was to determine whether the (1) the Park Service’s estimate of deferred
maintenance as reported in the note to its fiscal year 1998 financial statements was
reasonable and (2) the note included the minimum information required by Statement of
Federal Financial Accounting Standards No. 6, “Accounting for Property, Plant and
Equipment.” Because the Office of Management and Budget determined, after initiation of
our fieldwork, that deferred maintenance cost estimates reported in agency fiscal year 1998
financial statements were not subject to audit, we revised our objective. As revised, our
objective was to determine whether actions were needed to ensure that Park Service deferred
maintenance accounting and budgetary information was current, complete, and verifiable.

BACKGROUND

According to the Park Service’s Office of Facility Management, the Park Service has about
16,000 permanent structures, 8,000 miles of roads, 1,500 bridges, 5,385 houging units,
approximately 1,500 water and wastewater systems, 200 radio systems, more than 400 dams,
and more than 200 solid waste operations. The Park Service said that these facilities include
numerous cultural historic buildings and structures, complex utility systems, and an
extensive network of roads and trails that must be maintained at an operational level that
ensures continued protection, preservation, and serviceability. The Park Service estimated
that, as of September 30, 1998, the total cost of deferred maintenance for these assets ranged
from $2.5 billion to $5 billion.                                                          ..

In November 1995, the Office of Management and Budget and the General Accounting
Office issued Statement of Federal Financial Accounting Standards No. 6. Chapter 3 of the
Statement defined deferred maintenance as “maintenance that was not performed when it
should have been or was scheduled to be and which, therefore, is put off or delayed for a
future period” and defined maintenance as “the act of keeping fixed assets in acceptable
condition” and “activities needed to preserve the asset so that it continues to provide
acceptable services and achieves its expected life.” Standard No. 6 imposed certain financial
reporting requirements on Federal agencies, including the requirement that estimated
deferred maintenance costs should be disclosed in the agencies’ financial statements “for
fiscal years beginning after September 30, 1997.”

In May 1998, the Assistant Secretary for Policy, Management and Budget issued Department
of the Interior deferred maintenance guidance in Attachment G to the document “2000
Budget Request Formulation.” The guidance provided directions to the bureaus for preparing
5-year maintenance and capital improvement plans, complying with Standard No. 6, and
reviewing facilities-related information systems requirements. The guidance directed the
bureaus to use the condition assessment method to identify their deferred maintenance needs.
The guidance stated that condition assessments are “a complete inventory of their constructed
assets [to] identify the cost of correcting the deferred maintenance needs associated with
those assets” and that condition assessments should be conducted by “competent and
qualified personnel using uniform, comprehensive . . . criteria.” Regarding the assessments,
the guidance stated, “It is understood that it will take a multi-year effort for the bureaus to
accomplish complete condition assessments on all of their constructed assets.” The guidance
also defined deferred maintenance as the “unfunded or otherwise delayed work required to
bring a facility or item of equipment to a condition that meets accepted codes, laws, and
standards and preserves the facility or equipment so that it continues to provide acceptable
services and achieves its expected life.”

The Departmental guidance also discussed the information systems used to record
maintenance information and described a “continuing Department-wide facilities
management improvement effort” that would include a “review of maintenance data
requirements, systems, and applications.” The guidance further stated that the bureaus did
not have “consistent levels of deferred maintenance data in their facility management
systems”; that the maintenance systems were “of varying quality”; and that deferred
maintenance data systems “in some cases, need functional improvement.”

In June 1998, the Park Service distributed the Departmental guidance to all“parks and
attached the document “Servicewide Project Call to Support the FY [fiscal year] 2000
Budget Request, Including Identification of Projects to Support the Five-Year Maintenance
and Capital Improvement Plan and Deferred Maintenance Requirement.” This document
required parks to submit deferred maintenance estimates by July 1.5, 1998, and provided
guidance on the Project Management Information System (PMIS), which is one of the


                                               2
automated systems that maintain data on the Park Service’s deferred maintenance needs. On
October 30, 1998, the Park Service provided the Office ofInspector General information on
its fiscal year 1998 estimated deferred maintenance costs ($3.6 billion), which it reported in
four asset categories: roads and bridges, employee housing, dams, and PMIS projects. The
categories are described as follows:

        - The roads and bridges estimate was prepared by the Department OfTransportation’s
Federal Highway Administration, which performs condition assessments for roads and
bridges and maintains documentation on the assessments.

       - The employee housing estimate was prepared by the Park Service using the
Department ofthe Interior’s quarters management information system. This system contains
information from park personnel on park housing conditions.

       - The dams estimate was prepared by the Park Service from the current inventory and
from inspection reports that field personnel had submitted to the dam safety officer.

       - The PMIS estimate, according to the Park Service, contained information on the
Park Service’s unfunded needs that were not recorded in the other three categories.

In January 1999, the Office of Management and Budget issued a statement that agencies
were required to report their fiscal year 1998 estimated deferred maintenance costs in their
financial statements but for that fiscal year, the estimates would not be subject to audit. The
Park Service subsequently revised its deferred maintenance estimate to between $2.5 billion
and $5 billion.

SCOPE OF AUDIT

We reviewed the Park Service’s deferred maintenance cost estimate for fiscal year 1998 as
reported by the Park Service in October 1998. We conducted the audit at the locations listed
in Appendix 1. To accomplish our objective, we reviewed applicable Department of the
Interior, Federal Accounting Standards Advisory Board, and Park Service guidance, policies,
and procedures; planning and budget documents; PMIS reports; dam project databases;
information provided by the Federal Highway Administration; and available condition
description and cost documentation for deferred maintenance projects reported by the Park
Service.

Of the Park Service’s fiscal year 1998 estimated deferred maintenance cost of $3.6 billion,
we reviewed costs of $185.5 million. We selected for review a sample of 6L c&the 4,183
deferred maintenance projects in the Park Service’s PMIS database, 20 of the 13 1 deferred
maintenance projects in its database on dams, and 61 of the 1,184 deferred maintenance
projects in its database on bridges. We reviewed documentation on roads and employee
housing projects, but specific road and housing projects with specific costs were not
available for our review. Our review of the cost estimates is as follows:



                                               3
                                                                                                   .
                                 Original Amount                    Deferred Maintenance
        Asset Category                Reported                    Estimated Costs Reviewed

     Roads                         $2,144,000,000                                      0’

     Housing                           114,000,000                                     O2

     Dams                               72,000,OOO                        $41,400,000

     Bridges                            56,000,OOO                           8,400,000

     PMIS                          $1,239,874.500                         135,693,OOO

       Total                       $3,625,874,500                       $ 185,493.OOO


     ’ The Park Service did not provide specific road projects with project costs for review.
     ’ The Park Service did not provide specific housing projects with project costs for review.


Of the 61 PMIS projects reviewed, we statistically sampled 40 projects. The remaining
21 projects were judgmentally sampled because the projects were included in the Park
Service’s Five-Year Plan or were significant projects and 18 of the 40 statistically sampled
projects were in the Five-Year Plan. Also, we conducted interviews and obtained and
analyzed documentation from Park Service program personnel responsible for producing the
deferred maintenance cost estimates for housing and dams and from Federal Highway
Administration officials who produced the Park Service’s deferred maintenance cost
estimates for roads and bridges. We also visited or contacted the parks listed in Appendix 1
to review deferred maintenance projects and related documentation.

Our review was made, as applicable, in accordance with the “Government Auditing
Standards,” issued by the Comptroller General of the United States. Accordingly, we
included such tests of records and other auditing procedures that were considered necessary
under the circumstances. As part of the audit, we evaluated the system of internal controls
over the development ofthe Park Service’s estimated deferred maintenance cost to the extent
we considered necessary to accomplish the objective. We found internal control weaknesses
in the Park Service’s preparation, review, and approval of deferred maintenance estimates.
Our recommendations, if implemented, should improve the internal controls in these areas.

In addition, we reviewed the Departmental Report on Accountability for fiscal year 1998,
which included information required by the Federal Managers’ Financial Integrity Act of
1982, and the Park Service’s annual assurance statement on management contrds for fiscal
year 1998. We determined that although the Park Service reported no weaknesses within the
scope of our review, the Department reported that inadequate Departmentwide maintenance
management capability was a material weakness which impacted “most bureaus” and was
a “mission critical weakness.”




                                                     4
PRIOR AUDIT COVERAGE

During the past 5 years, the Office of Inspector General has issued three reports and the
General Accounting Office has issued two reports regarding the Park Service’s deferred
maintenance. These reports are summarized in Appendix 2.

                               RESULTS OF AUDIT
We found that the National Park Service’s deferred maintenance cost estimates were not
developed in accordance with Federal accounting standards and Department of the Interior
guidance and thus the Park Service had little assurance that its deferred maintenance
accounting and budget data were current, complete, and verifiable. This condition occurred
because the Park Service did not (1) conduct all needed assessments to identify asset
conditions, (2) document its estimated deferred maintenance costs, and (3) establish adequate
controls to ensure compliance with Federal and Departmental deferred maintenance
guidance. As a result, the Park Service may not be able to meet Federal financial accounting
standards in future years, when deferred maintenance data must be reliable for financial
statements reporting purposes, and it did not have reliable data to support its fiscal year 2000
budget request for deferred maintenance funding.

Condition Assessments

The Department’s fiscal year 2000 budget guidance required bureaus to conduct condition
assessments to identify their deferred maintenance needs “to assure that the most critical
needs are being addressed with priority in the Plan [the Department’s 5-year maintenance
and capital improvement plan].” To achieve Departmentwide consistency in determining the
physical condition of assets, the guidance stated that a “uniform methodology and a core data
set” for condition assessments were needed; the assessments should be conducted by
“competent and qualified personnel using uniform, comprehensive . . . criteria”; automated
systems should be developed to “accurately document facilities’ needs”; system data should
be capable of being “easily reviewed and updated by field and regional staffs”; data should
be based on documentation that includes “standard need descriptions and associated cost
estimating procedures”; and bureaus should establish a “cyclic/recurring condition
assessment process where on-site inspections are conducted at a minimum every five years.”

Despite the Departmental guidance, we found that the Park Service had not fully conducted
condition assessments or documented that they had been completed. Of the 61 PMIS
projects reviewed, we found that 30 were not supported with condition assessments, 12 of
the 20 dam projects included in the Park Service’s listing of deferred maintenwe projects
were not supported with condition assessments, and none of the housing projects or road
projects included in Park Service deferred maintenance project listings were supported with
condition assessments, For example:




                                               5
       - The PMIS included a deferred maintenance project at the Petrified Forest National
Park in Arizona that provided for the replacement of a water line at an estimated cost of
$6,166,000. The Park, in its response to our questionnaire. stated that a “formal condition
assessment was not completed for this project.”

         - The PMIS included a deferred maintenance project for the George Washington
Memorial Parkway in Virginia that provided for the rehabilitation of the Parkway at an
estimated cost of $85,5 16,000. The Park Service, however, had no detailed information on
the locations at which maintenance was needed or documentation on the current conditions
of the Parkway, although it provided a IO-year old engineering study of the Parkway as
support for this prqject (with an estimated rehabilitation cost of $95 million). Park Service
officials said that some of the work included in that study had been completed but could not
identify the completed work or the work that needed to be done. According to Park Service
officials, the Park Service will base its estimated cost of this project on data received through
the roads and bridges inventory program that is conducted by professional engineers at the
Department of Transportation’s Federal Highway Administration, and the project will not
be included in future PMIS project listings.

        - The PMIS included deferred maintenance projects to rehabilitate 84 campsites at
Sequoia and Kings Canyon National Parks in California at an estimated cost of $472,500.
During our site visit to the parks, park personnel stated that there was no documented
condition assessments of the work needed at the campgrounds.

For its fiscal year 1998 deferred maintenance estimate, the Park Service had not developed
a c ndition assessment program to systematically evaluate its capital assets to determine its
project repair, renewal, or replacement needs. The Park Service also had not established a
standard set of criteria for evaluating asset condition, and the quality and content of its
assessments varied considerably from park to park. For example, some deferred
maintenance projects were documented with engineering studies and detailed industry-
accepted cost estimates, while other projects had informal or no documented condition
assessments.

Deferred Maintenance Cost Estimates

The Park Service did not always document the method used or the basis for its deferred
maintenance estimates. As a result, we could not determine whether the estimates were
current or complete or were based on reliable cost data. About 50 percent of the PMIS
projects reviewed (3 1 of 61 projects reviewed, with estimated costs totaling $116,571,190)
were not supported with cost estimates that included detailed labor, materials, and overhead
estimates; information on the sources for cost data; or the method used to devehp the cost
estimates. In addition, of the 20 dams projects included in the Park Service’s deferred
maintenance listing, we found that 17 prqjects, with estimated costs totaling $41,400,000,
were not supported with cost estimates that could be verified.




                                                6
We found that the Park Service had not documented its cost estimates because (1) park
personnel were not given sufficient time to compile the estimates and (2) it had not issued
detailed guidance on how to document the estimates. Specifically, the Park Service Director
issued guidance on deferred maintenance cost estimates to park managers in a June 10,1998,
memorandum, which stated that “all projects meeting these three requirements [fee
demonstration projects, 5-year maintenance and capital improvement plan projects, and
deferred maintenance projects] be identified and entered by July 15, 1998.” No additional
implementing guidance on computing or documenting cost estimates was issued, such as
guidance on whether or which direct or indirect costs should be included in the estimates and
what types of supporting documentation were needed. Park managers stated that the
memorandum was not issued in sufficient time to develop cost estimates because the months
of June and July were their highest visitation periods and they did not have the resources to
meet the requirement in such a short period of time.

Also, according to the Park Service, the reliability of the cost estimates was related to the
availability of engineering, architectural, and maintenance staff in the parks. Specifically,
Park Service officials said that parks with personnel in these specialties prepared more
detailed and verifiable estimates than parks without these personnel. We found that 22 of
the 30 supported cost estimates in the PMIS were prepared by Park Service resident
engineers/ architects, by architectural and engineering firms, or by the Federal Highway
Administration.

Because the Park Service did not always prepare reliable cost estimates or document the
estimated costs of its deferred maintenance projects, it did not have adequate support for all
projects for which funding was requested. For example, 35 of our sample items were for
projects that the Park Service had included in its 5-year budget submission to the Congress.
We found that the cost estimates for 19 of these projects (total cost of $8,775,800) could not
be verified because documentation was insufficient or was not provided to support these
estimates.

Compliance Controls

The Park Service did not implement sufficient controls to ensure that its estimated deferred
maintenance costs were determined in accordance with Federal accounting standards or
Departmental and Park Service guidance. Specifically, controls were not implemented to
ensure that deferred maintenance estimates were complete and accurate and that projects met
the definition of deferred maintenance. For example, in its estimate for dams, the Park
Service included deferred maintenance only for those dams that were considered to be the
most seriously deficient in terms of maintenance. According to the Park Sevice’s dam
safety officer, the estimate did not include all dams that were in need of deferred
maintenance. In addition, Park Service officials at the Western and National Capital Regions
stated that deferred maintenance projects of about $200 million submitted by field personnel
were not included in the estimate because the officials had insufficient time to review the
projects.



                                              7
The Park Service also did not ensure that project costs were not duplicated. For example,
the park superintendent at Cumberland Island National Seashore in Georgia stated that he
had entered into PMIS a deferred maintenance project for the rehabilitation of multiple park
buildings and that he had also entered separate projects for components of this rehabilitation
project. The park superintendent said that he had made these duplicate entries to increase
the chances of receiving funding for the project.

The Park Service also included projects in its deferred maintenance estimate that did not
meet the definition of deferred maintenance as stated in Standard No. 6 or Departmental and
Park Service guidance. For example:

         - At Minuteman National Historic Park in Massachusetts, the Park Service included,
as a deferred maintenance project, the replacement of a septic system at an estimated cost
of $147,800. The Park’s Chief of Maintenance said that the system had exhausted its useful
life, and the project description for this project indicated that the new system would be a
significant upgrade. Because both Standard No. 6 and Departmental guidance define
deferred maintenance as maintenance performed during the “expected life” of an asset and
exclude projects that significantly upgrade or expand an asset’s use, we believe that this
project should not have been included in the deferred maintenance listing.

        - At Indiana Dunes National Lakeshore, the Park Service included an estimate of
$75,000 for a deferred maintenance project that involved the removal of storage tanks which
are not used by the Service and that presented an environmental hazard. This project, in our
opinion, does not meet the standard for deferred maintenance because the work does not
preserve the asset so that it continues to provide acceptable services and achieve its expected
life.

We also found that the Park Service did not have controls to ensure that deferred
maintenance cost estimates were accurate. For example, a spreadsheet from the Federal
Highway Administration’s Federal Lands Highway Office reportedly contained summary
information on the Park Service’s road and bridge deferred maintenance projects. From the
spreadsheet, we selected for review 6 1 bridge repair projects at eight parks. These projects
had a total estimated cost of $8,4OO,OO. Based on a review of detailed condition assessments
from the Federal Highway Administration’s Eastern Federal Lands Highway Division (the
organization responsible for preparing the condition assessments of the bridges), we found
that there were 70 bridges, which had estimated deferred maintenance costs totaling
$3,125,300, at the eight parks. Thus, for these items, the Park Service’s deferred
maintenance costs, which were based on Federal Highway Administration estimates, were
overstated by about $5.2 million. The Federal Highway Administration stated that for fiscal
year 2000, it would validate deferred maintenance data on its roads and bridges to%nsure that
the data were reliable.




                                               8
Need for Deferred Maintenance Data

We believe that the Park Service needs reliable deferred maintenance data to ensure that it
(1) can comply with financial statements reporting requirements for future years, (2) can
support budget requests for deferred maintenance project funding submitted to the Congress,
and (3) has the information necessary to prioritize and properly manage its projects. The
General Accounting Office stated in its March 1999 report “Recreation Fees Demonstration
Has Increased Revenues, but Impact on Park Service Backlog is Uncertain” (No. GAO/T-
RCED-99- 10 1) that the Park Service had not developed accurate and reliable information on
its total deferred maintenance needs. The report also stated that “given the substantial
increase in funding that the Park Service will receive under the demonstration fee program,
now more than ever the agency will have to be accountable for demonstrating its
accomplishments in improving the maintenance of . . . facilities with these [the fee
demonstration program] additional resources.” The report added that the Park Service “will
need to develop more accurate and reliable information on its deferred maintenance needs
and to track progress in addressing them.”

Park Service Efforts

Park Service officials stated that actions are planned to provide more comprehensive
condition assessments in future years. For example, according to Park Service officials, “The
Park Service has since developed and tested methodology and procedures for conducting
condition assessments on employee housing units. A standard set of criteria has also been
established and tested on two prototype park housing condition assessment reviews. It is
anticipated that these methods and criteria will be further developed for use on all National
Park Service assets.” Regarding funding, the Park Service, in its budget request for fiscal
year 2000, requested $2.5 million to “initiate a multi-year inventory and condition
assessment [program] totaling $25 million.” Also, in addition to its appropriated funds, the
Park Service has other funding that may be used for deferred maintenance. For example, in
its fiscal year 2000 budget request, the Park Service stated that “funding to address
maintenance needs as well as enhanced resource management and improved visitor services
will also be available from the Recreation Fee Demonstration Program [which the Park
Service estimated would generate fees of $137.3 million].” Moreover, according to the Park
Service, the Federal Highway Administration will provide the Park Service tinding of
$165 million for road and bridge construction and maintenance in fiscal year 2000.

Recommendations

We recommend that the Director, National Park Service:                           &

        1. Establish a plan for the timely completion of condition assessments on all Park
Service assets subject to deferred maintenance reporting. The plan should establish a
standard set of criteria for evaluating asset condition and require that documentation on the
assessments be maintained.


                                              9
        2. Require qualified Park Service personnel to prepare documentation to support
deferred maintenance cost estimates which includes details on the material, labor, and
overhead costs needed to complete the projects; the bases for these costs; and the
methodology used in arriving at the cost estimates.

        3. Establish a review and approval process which will ensure that all deferred
maintenance estimates are complete, accurate, and current and do not contain duplicate
projects.

National Park Service Response and Office of Inspector General Reply

In the September 16, 1999, response (Appendix 2) to the draft report from the Director,
National Park Service, the Park Service concurred with the report’s three recommendations.
However, specific information on actions taken or planned, including target dates and titles
of the officials responsible for implementation, was not provided (see Appendix 4).

In its response, the Park Service said that it was taking and planned to take actions to
improve the reliability of its deferred maintenance data. For example, the Park Service said
that its data collection and analysis process has improved with “built-in quality checks to
ensnre roll-ups are anchored to and based on the raw data collected at the actual road
segment or bridge.” Further, the Park Service said that the Federal Highway Administration
is completing a review “to validate the quality of the collected data and the cost multipliers
used to develop the costs at the project level.” The Park Service also made general and
specific comments on the report, which we considered and incorporated into the report as
appropriate. The Park Service’s comments and our replies to these comments are in the
paragraphs that follow.

        National Park Service Comment. The Park Service said that the “tone” of the
report “tends to make it sound like the National Park Service has been reporting deferred
maintenance for a number of years and is just not getting it right.” The Park Service said
that the report should “provide more emphasis on the fact that completion of condition
assessments on the Service’s constructed assets will be a long-term effort” because of the
extensive size of the Park Service’s facility inventory.

        Office of Inspector General Reply. The report stated that the audit reviewed the
deferred maintenance cost estimate prepared by the Park Service for fiscal year 1998. We
also said that Federal agencies were first required to prepare deferred maintenance cost
estimates for their-fiscal year 1998 financial statements and that the requirement for an audit
of the estimate was deferred until fiscal year 1999. As such, we did not state or imply that
the Park Service had prepared unreliable deferred maintenance cost estimates f8r financial
statement reporting purposes “for a number of years.” However, we did cite General
Accounting Office and Office of Inspector General audit reports issued during the past 5
years (see Appendix 2) in which auditors stated that the Park Service had not prepared or
maintained reliable deferred maintenance data that were needed for budgeting and
operational purposes. Regarding the Park Service’s request that we emphasize that condition

                                              10
assessments are a “long-term effort,” we believe that our report, in describing the actions
needed to improve the reliability of deferred maintenance data, recognizes that the condition
assessment and cost estimation process involves considerable effort (see page 9).

       National Park Service Comment. The Park Service said that we were “incorrect”
in our statement that “‘park personnel were not given sufficient time to compile estimates.“’
The Park Service also said, “Where this information [deferred maintenance data] resides in
electronic format, it was imported into the PMIS database, thereby minimizing the efforts
of park personnel.”

        Office of Inspector General Reply. Our comments on the timeliness of preparing
deferred maintenance data were unrelated to the efficiency with which the Park Service
recorded or entered information in its databases. Rather, our discussion of timeliness was
based on comments made by personnel at the parks visited who said that they did not have
sufficient time to compile detailed estimates because they were asked to provide the data
during the summer months, a time during which visitation to the parks is high and staff in
general are unavailable to perform additional duties.

        National Park Service Comment. The Park Service recommended that the report
define “an acceptable cost estimate” and the “reliability of cost estimates.”

        Office of Inspector General Reply. Although Standard No. 6 and Departmental
guidance do not define an acceptable cost estimate or the reliability of cost estimates, we
used the following standard in evaluating cost estimates and data reliability: (1) the estimate
was prepared by a technically competent staff member, (2) documentation was prepared and
retained to show the basis or method used to estimate deferred maintenance costs, and (3)
documentation was prepared and retained to show that a condition assessment had been
performed.

        National Park Service Comment. The Park Service stated that we were “incorrect”
in our statement that the Park Service “‘did not ensure that project costs were not
duplicated.“’ It further said that “a limited number of duplicate projects were missed.”

         Office of Inspector General Reply. Our report did not discuss the “limited number”
of projects that may have been “missed” during a review of items in each of the Park
Service’s databases. Rather, we discussed duplicate entries that were intentionally made so
that projects would more likely receive funding (based on the statement of a Park Service
official who made the duplicate entries) and those that were made because the projects were
inadvertently included in more than one database (for example, in PMIS and in the roads
databases). To detect these types of duplicate entries, the Park Service need&o perform
more than a cursory review of its deferred maintenance data.

In accordance with the Departmental Manual (360 DM 5.3), we are requesting a written
response to this report by October 29, 1999. The response should include the information
requested in Appendix 4.


                                              11
Section 5(a) of the Inspector General Act (Public Law 95542), as amended) requires the
Office of Inspector General to list this report in its semiannual report to the Congress:

We appreciate the assistance of Park Service personnel in the conduct of our audit.




                                             12
                                                                           APPENDIX 1
                                                                             Page 1 of 2

                     LOCATIONS VISITED OR CONTACTED                                 ..
                    BUREAU                                 LOCATION

National Park Service

Park Operations and Education, Facilities Management   Washington, D.C.

Parks
-.
  George Washington Memorial Parkway                   McLean, Virginia
  Chesapeake and Ohio Canal National Historical Park   Sharpsburg, Maryland
  Harpers Ferry National Historical Park               Harpers Ferry, West Virginia
  Shenandoah National Park                             Luray, Virginia
  Blue Ridge Parkway                                   Asheville, North Carolina
  Cumberland Island National Seashore                  Saint Marys, Georgia
  Indiana Dunes National Lakeshore                     Porter, Indiana
  Cuyahoga Valley National Recreation Area             Brecksville, Ohio
  Gateway National Recreation Area                     Brooklyn, New York
  Boston National Historical Park                      Boston, Massachusetts
  Minute Man National Historical Park                  Concord, Massachusetts
  Golden Gate National Recreation Area                 San Francisco, California
  Point Reyes National Seashore                        Point Reyes. California
  Sequoia and Kings Canyon National Parks              Three Rivers, California
  Biscayne National Park*                              Homestead, Florida
  Death Valley National Park*                          Death Valley, California
  Lincoln Home National Historic Site*                 Springfield, Illinois
  White Sands National Monument*                       Holloman Air Force Base, New Mexico
  Yellowstone National Park*                           Yellowstone, Wyoming
  Petrified Forest National Park*                      Petrified Forest, Arizona
  Glen Canyon National Recreation Area*                Page, Arizona
  Theodore Roosevelt National Park*                    Medora, North Dakota
  Dinosaur National Monument*                          Dinosaur, Colorado
  Lava Beds National Monument*                         Tulelake, California
  Lake Mead National Recreation Area*                  Boulder City, Nevada
  Denali National Park and Preserve*                   Denali Park, Alaska
  Grand Teton National Park*                           Moose, Wyoming
  Vicksburg National Military Park*                    Vicksburg, Mississippi
  Natchez National Historical Park*                    Natchez, Mississippi
  Sleeping Bear Dunes National Lakeshore*              Empire, Michigan
  Ozark National Scenic Riverway*                      Van Buren, Missouri
  Wupatki National Monument*                           Flagstaff, Arizona
  Harry S. Truman National Historic Site*              Independence, Missouri
  Joshua Tree National Park*                           Twentynine Palms, California
  Hagerman Fossil Beds National Monument*              Hager-man, Idaho
  Mount Rainier National Park*                         Ashford, Washington
                                                                                 &
*Parks contacted but not visited.




                                                  13
                                                                     APPENDIX 1
                                                                       Page 2 of 2


Department of Transportation

 Federal Highway Administration, Federal
   Lands Highway Office                         Washington, D.C.

  Eastern Federal Lands Highway Division        Sterling, Virginia




                                           14
                                                                           APPENDIX 2
                                                                             Page 1 of 2

                                                                                    ..
                           PRIOR AUDIT COVERAGE

During the past 5 years, the Office of Inspector General has issued three reports and the
General Accounting Office has issued two reports on the National Park Service’s deferred
maintenance.

The Office of Inspector General reports are as follows:

     - The audit report “Deferred Maintenance, National Park Service, U.S. Fish and
Wildlife Service, U.S. Geological Survey, Bureau of Indian Affairs, Bureau of Land
Management, and Bureau of Reclamation” (99-I-874) issued in September 1999, stated that
the National Park Service; the U.S. Fish and Wildlife Service, the U.S. Geological Survey,
the Bureau of Indian Affairs, the Bureau of Land Management, and the Bureau of
Reclamation needed to implement actions to ensure that deferred maintenance information
was reliable for budgetary and accounting purposes and that neither the Department nor any
of the bureaus could adequately support deferred maintenance cost estimates, which were
reported to total between $8.3 billion and $14.4 billion as of September 30, 1998.

     - The audit report “National Park Service Financial Statements for Fiscal Years 1997
and 1998” (99-I-916) issued in September 1999, identified an internal control weakness
considered to be a reportable condition related to deferred maintenance. The report stated
that formal policies and procedures for conducting periodic condition assessments and
computing deferred maintenance funding estimates needed to be established to promote
consistent and reliable deferred maintenance data.

     - The March 1998 audit report “Followup of Maintenance Activities, National Park
Service” (No. 98-I-344) addressed several maintenance issues, including the Park Service’s
discontinued use of its standardized maintenance management system, which adversely
impacted the Park Service’s ability to track and monitor deferred maintenance performance.
The report contained four recommendations, of which one was considered resolved and
three were considered unresolved. The unresolved recommendation pertaining to the Park
Service’s reporting its lack of a standardized maintenance management system as a material
weakness may be considered resolved as a result of the Office of Policy, Management and
Budget’s decision to classify the lack of standardized maintenance management systems as
a Departmentwide material weakness.




                                             15
                                                                               APPENDIX 2
                                                                                 Page 2 of 2



The General Accounting Office reports are as follows:

     - The March 1999 report “Recreation Fees Demonstration Has Increased Revenues, but
Impact on Park Service Backlog is Uncertain” (No. GAO/T-RCED-99-I 0 1) presented the
testimony of the General Accounting Office on the Park Service’s Fee Demonstration
Program. The report stated that the Program “appears to be working well and meeting many
of the law’s intended objectives” and that the Program will provide the Park Service with a
“substantial increase in funding.” However, the report noted that the Park Service needed
“to develop more accurate and reliable information on its deferred maintenance needs” and
that the Park Service “should be held accountable for demonstrating its accomplishments
in improving the maintenance of Park Service facilities with [the Fee Demonstration
Program funds]. ”

     - The May 1998 report “National Park Service Efforts To Identify and Manage the
Maintenance Backlog” (No. GAO/RCED-98- 143) stated that the Park Service’s most recent
maintenance backlog cost estimate did not accurately reflect the scope of the Park Service’s
maintenance needs. According to the report, $5.6 billion of the Park Service’s reported
$6.1 billion maintenance backlog was for construction projects, and $1.2 billion, or
2 1 percent, of the $5.6 billion was for expenditures “that expand or upgrade park facilities”
which “go beyond what could reasonably be viewed as maintenance.” The report also stated
that “the absence of a common definition of what should be included in the maintenance
backlog contributed to an inaccurate and out-of-date estimate” of the Park Service’s
maintenance needs. The report stated that to address its maintenance backlog, the Park
Service needed to develop more accurate estimates of its total maintenance needs.




                                              16
                                                                                    APPENDIX 3
                                                                                      Page 1 of 3
                      United States Department of the Interior
                                         NATIONAL PARK SERVICE
                                              1849 C Street, N.W.                         ..
                                             Washington, DC 20240
IN REPLY RF%R To:




 F73 14 (2420)



 Memorandum

 To:                Assistant Inspector General for Audits

 From:              Director

  Subject :         Comments on Office of the Inspector General Draft Audit Report:
                    E-IN-NPS-003-98(A)-M, Deferred Maintenance, National Park Service, August 1999

 Attached please find the National Park Service comments on the subject report,


 If you have any questions or wish to discuss this further, please contact Tim Harvey at 202/565-1250.



 Attachment




                                                    17
                                                                                               APPENDIX 3
                                                                                               Page 2 of 3

             National Park Service Comments on OIG Draft Audit Report
         Deferred Maintenance, National Park Service E-IN-NPS-003-98(A)-M
                                                                                        _.
 General Comment:

The tone of the draft report tends to make it sound like the National Park Service has been
reporting deferred maintenance for a number of years and is just not getting it right. The
report fails to acknowledge that this is a new process for the entire Federal Government.
Additionally the report does not recognize that this is a significant undertaking given the
size of the National Park Service facility inventory. The report should provide more
emphasis on the fact that completion of condition assessments on the Service’s constructed
assets will be a long-term eflort.

Specific Comments:

Page 1 - 1” paragraph under Background add the sentence “These facilities, which
include numerous cultural and historic buildings and structures, complex utility systems
and an extensive network of roads and trails, must be maintained at an operational level
that ensures continued protection, preservation and serviceability”. This addition was not
made to the preliminary drafi as requested, instead otu’y the phrase “an extensive network
of trails ” was added to the text.

Page 4, first footnote, after first sentence, add the following suggested wording, “Data
collection and analysis processes have improved with built-in quality checks to ensure
roll-ups are anchored to and based on the raw data collected at the actual road segment or
bridge. This should give a sound foundation for any and all cumulative national deferred
maintenance costs for the Service’s 5,000 miles of paved roads, and 1,250 bridges.”

Page 6, 2”d example, add the following suggested wording, “Deferred maintenance will
be based on inventory collected by the Road and Bridge Inventory Programs completed
by professional engineers at the Federal Highway.’ Administration versus project
submissions in PMIS.

Page 6, 4’h paragraph, after the 2”d sentence add the following: “The National Park
Service has since developed and tested methodology and procedures for conducting
condition assessments on employee housing units. A standard set of criteria has also
been established and tested on two-prototype park housing condition assessment reviews.
It is anticipated that these methods and criteria will be further developed for use on all
National Park Service assets.” “. while this addition is included under the “Park Service
Eflorts ” section of the report, it should also be mentioned as previously requested in this
section so that the reader understands that the National Park Service is making an effort in
addressing this issue.                                                           &
Page 7 1 St paragraph - the statement “( 1) park personnel were not given sufficient time to
compile estimates” is incorrect. The fact is that many of the projects had been previously
identified and documented. Where this information resided in an electronic format, it
was imported into the PMIS database, thereby minimizing the efforts of park personnel.
This clarification was not made to the preliminary draft as requested.

                                             I

                                           18
                                                                                  APPENDIX 3
                                                                                    Page 3 of 3
Page 7 1” paragraph - Recommend that the report provide the definition of an acceptable
cost estimate. “. This definition was not added to the preliminary draft as requested.

Page 7 2”d paragraph - how does the standard define reliability of cost estimates? ‘.‘ This
definition was not made to the preliminary draft as requested,

Page 8 1” paragraph - the statement “ The Park Service also did not ensure that project
costs were not duplicated” is incorrect. Several staff members reviewed the project list.
However, due to the overwhelming size of the list, a limited number of duplicate projects
were missed. “. This addition was not made to the preliminary draft as requested.

Page 8 2”d example - tank removal at Indiana Dunes, the preliminary draft had this tank
removal project at Cuyahoga National Recreation Area for the same dollar amount.
Please clarify where this project was located.

Page 8, 6th paragraph, add the following suggested wording, “ Deferred maintenance
costs will be based on inventory collected by the Road and Bridge Inventory Programs.
Federal Highway Administration is currently completing a review to validate the quality
of the collected data and the cost multipliers used to develop the costs at the project level.
The goal is to develop sound cost estimates at the project level to give strong reliability to
the national roll-ups.”

The NPS concurs with recommendation #l. We also concur with recommendations #2
and #3 subject to the availability of funds for this purpose. Without the necessary
funding, the Nl?S will be unable to implement recommendation #‘s 2 and 3.




                                              2
                                            19
                                                              APPENDIX 4


     STATUS OF AUDIT REPORT RECOMMENDATIONS                            ..
Recommendations             Status                 Actions Required

       1          Management concurs;      Provide an action plan for the
                  additional information   timely completion of condition
                  needed.                  assessments and the
                                           establishment of a standard set
                                           of criteria for evaluating asset
                                           condition. The plan should
                                           include the target date and the
                                           title of the official responsible
                                           for implementation.

       2          Management concurs;      Provide an action plan on the
                  additional information   issuance of a requirement that
                  needed.                  documentation should be
                                           prepared to support deferred
                                           maintenance cost estimates.
                                           The plan should include the
                                           target date and the title of the
                                           official responsible for
                                           implementation.

                  Management concurs;      Provide an action plan on the
                  additional information   establishment of a review and
                  needed.                  approval process for deferred
                                           maintenance data. The plan
                                           should include the target date
                                           and the title of the official
                                           responsible for implementation.




                                     20
                   ILLEGAL OR WASTEFUL ACTMTIES
                       SHOULD BE REPORTED TO
                  THE OFFICE OF INSPECTOR GENERAL

                              Internet/E-Mail Address

                                     www,oig,doi.gov


                      Within the Continental United States

U. S . Department of the Interior                      Our 24-hour
Office of Inspector General                            Telephone HOTLINE
1849 C Street, N.W.                                    l-800424-508 1 or
Mail Stop 5341                                         (202) 208-5300
Washington, D.C. 20240

                                                       TDD for hearing impaired
                                                       (202) 208-2420 or
                                                       l-800-354-0996


                     Outside the Continental United States

                                    Caribbean Region

U. S . Department of the Interior                      (703) 235-922 1
Office of Inspector General
Eastern Division - Investigations
4040 Fairfax Drive
Suite 303
Arlington, Virginia 22203

                                     Pacific Region

U.S. Department of the Interior                        (671) 647-6060
OfIke of Inspector General
Pacific Office
415 chalan San Antonio
Baltej Pavilion, Suite 306
Tatnuning, Guam 96911
        :    Toll Free Numbers:
        :     l-800-424-5081
        :     TDD l-800-354-0996
        :
        .
        :
             FE/Commercial Numbers:
    ;         (202) 208-5300
         :    TDD (202) 208-2420
         :


.
         :
        :.
        :
              HOTLINE
        :    1849 C Street, N.W.
             Mail Stop 5341
    j        Washington, D.C. 20240
                              /     -
    :
    :
    :
    :
    :
    f
    :
    :
    -
